OIG Audit Report GR-90-09-007

Office of Justice Programs Southwest Border Prosecution Initiative Funding Received by Alameda County, California
Audit Report GR-90-09-007
May 2009
Office of the Inspector General


Executive Summary


The U.S. Department of Justice, Office of the  Inspector General, Audit Division, has completed an audit of the Southwest Border Prosecution Initiative (SWBPI) funding  awarded by the Office of Justice Programs (OJP) to Alameda County,  California (Alameda).  Between  October 1, 2001, and September 30, 2007, Alameda  received $192,455 in SWBPI funding.
Prior  to 1994, most southwest border counties in the states of Arizona,  California, New Mexico,  and Texas did not prosecute drug cases  resulting from the illegal importation of controlled substances at U.S.  borders.  Typically, these cases were  prosecuted exclusively by U.S. Attorneys in federal courts.  However, in late 1994, U.S. Attorneys and  state and local prosecutors established partnerships through which the state  and local governments began prosecuting federally referred criminal cases.  These partnerships allowed the U.S. Attorneys  to focus on addressing major drug trafficking organizations and prosecuting  deported criminal aliens who returned to the U.S. illegally.  As state and local governments began to  prosecute a growing number of federally referred criminal cases, the  partnerships led to an increased financial and resource burden.  
        The SWBPI program was established in Fiscal Year (FY)  2002, when Congress began appropriating funds to reimburse state, county,  parish, tribal, and municipal governments for costs associated with the  prosecution of criminal cases declined by local U.S. Attorneys’ offices.  Reimbursements received from SWBPI funding  may be used by applicant jurisdictions for any purpose not otherwise prohibited  by federal law.  
The  objective of our audit was to determine if the SWBPI program reimbursements  received by Alameda  were allowable, supported, and in accordance with applicable laws, regulations,  guidelines, and terms and conditions of the SWBPI guidelines.
We  found that Alameda  claimed and was reimbursed for cases  that were ineligible under the SWBPI guidelines.  Specifically, we identified $8,451 in questioned costs for cases that were submitted  in the wrong quarter.  Additionally, we  identified weaknesses in Alameda’s management controls over record retention  and reimbursement requests.  As a result,  we made four recommendations to address these issues.
We discuss these matters in the Findings and Recommendations Section of the report.  Additionally, we discussed the results of our audit with Alameda officials and have included their comments in the report, as applicable.  In addition, we requested written responses to our draft report from Alameda and OJP.  Alameda elected not to provide a formal, written response to our draft audit report (see Appendix III); OJPs response is included in this report as Appendix IV.  Our audit objective, scope and methodology appear in Appendix II of this report.



 




Return to OIG Home Page